U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Trump v. Useche, No. 20-662
Dear Mr. Harris:
The jurisdictional statement in the above-captioned case was filed on November 13, 2020.
The appellees’ motion to affirm or dismiss is due on December 14, 2020. The government
respectfully submits this letter pursuant to Rule 30.4 of the Rules of this Court. Although the
government has no reason to believe that appellees will seek an extension of time to file their
motion to affirm or dismiss, the government submits this letter in an abundance of caution to
inform the Clerk in advance that it would oppose any request for an extension.
The district court entered a judgment barring the Secretary of Commerce from including
information requested by the President about the immigration status of individuals in a report
concerning the enumeration for purposes of apportionment of Representatives; the report has a
statutory deadline of December 31, 2020. See J.S. App. 37a-38a; 13 U.S.C. 141(b). The
government has requested that the Court hold the jurisdictional statement in this case pending its
disposition of Trump v. New York, No. 20-366 (filed Sept. 22, 2020), and then dispose of it as
appropriate in light of the Court’s decision in that case. New York involves the same questions
presented as does the jurisdictional statement in this case, and, recognizing the need for resolution
of those questions before the December 31 statutory deadline, this Court expedited its
consideration of New York and set oral argument for November 30.
An extension of time to file the motion to affirm or dismiss could hinder this Court’s ability
to act on the jurisdictional statement in this case after it decides New York and before the December
31 statutory deadline. Accordingly, the government would oppose any such extension request.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

LIST: 20-662 Trump, et al. v. Useche, et al.
DANIEL THURSTON GRANT
CARLTON FORBES
JEFFREY CAO
PATRICIO MARTINEZ LLOMPART
SHANKAR DURAISWAMY
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET NW
WASHINGTON, DC 20001
202-662-5851
dgrant@cov.com
cforbes@cov.com
jcao@cov.com
msaunders@cov.com
pmartinezllompart@cov.com
sduraiswamy@cov.com
MORGAN E. LEWIS
COVERINGTON AND BURLING LLP
415 MISSION STREET
STE. 5400
SAN FRANCISCO, CA 94105
415-591-2533
melewis@cov.com
P. BENJAMIN DUKE
COVINGTON AND BURLING LLP
620 EIGHTH AVE.
NEW YORK, NY 10018
212-841-1072
pbduke@cov.com

